SEC.gov |  Enforcement Administrative Functions
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Enforcement Administrative Functions
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Enforcement Administrative Functions
Audit Report No. 233May 15, 1996
SUMMARY
Our review of the Division of Enforcement's administrative
controls found that the controls appeared to provide reasonable
assurance that assets were safeguarded and operations were in
compliance with policies and procedures.
We are making several recommendations to enhance Enforcement's
administrative controls.  These include requiring staff to sign
in sequentially by time; reconciling Enforcement's blotter records
with records of the Office of the Comptroller; providing additional
training to the support staff; and improving document storage.
The Division of Enforcement and the Offices of Administrative
and Personnel Management and the Comptroller generally concurred
with our recommendations.  Their comments are attached.
OBJECTIVE AND SCOPE
The objective of the review was to determine if Enforcement's
administrative controls were functioning properly and in compliance
with regulations.  It covered controls relating to accounting,
time and attendance, travel, property, and training.   During
the review, we interviewed Enforcement's administrative staff
and conducted tests of controls.
We did not include procurement within our audit scope.  The audit
was performed in accordance with generally accepted government
auditing procedures between July 1995 and January 1996.
BACKGROUND
The Division of Enforcement, like other offices and divisions,
performs several administrative functions, including  maintaining
time and attendance and blotter records, authorizing travel expenditures,
and helping maintain a property inventory.  The Division's administrative
staff includes a senior program analyst; administrative assistants;
and numerous clerical and secretarial staff.
AUDIT RESULTS
Generally, Enforcement's administrative controls appeared to
provide reasonable assurance that assets were safeguarded adequately,
and operations were conducted economically, efficiently, and in
compliance with policies and procedures.  Also, its administrative
staff appeared competent and conscientious.
As discussed below, we are recommending several enhancements
to the administrative controls.
Sequential Sign-In
In January 1996, the Division implemented sign-in procedures
for employees working an altered schedule, as required by Commission
regulations.  However, employees are not recording their arrival
and departure sequentially by time, which weakens the effectiveness
of this control procedure and is contrary to regulations (see
SECHDBK 15-3, page 3).  For example, we noted three employees
who by 10:00 a.m. on February 14, 1996 had already signed in and
out.  They were able to do this because the log consisted of loose
sheets of paper containing three columns. One column required
the person to sign their name and the other two were for them
to enter the time they arrived and departed.
Recommendation A
The Division of Enforcement should require its employees to sign
in and out sequentially in a serial log.
Overtime Documentation
We reviewed overtime documentation for selected 1995 pay
periods for 24 Enforcement employees.  We found that the date
and time the overtime was worked was not recorded in all cases
on the overtime approval form (SEC-1749).  This information would
allow supervisors to verify overtime (by consulting sign in logs
maintained by the office or division and by the guards), and thus
would help prevent and detect abuse.
Recommendation B
The Division of Enforcement should require its employees to document
the date and time of overtime worked on the overtime approval
form (SEC-1749).
Reconciliation
The Division is not reconciling its blotter records with the
Comptroller's accounting records, as required by Commission regulations
(SECR 14-1).  For example, we noted one blotter account, object
code 2530, which had a negative balance ($4,459.08) in fiscal
year 1995 and unrecorded expenses.
Reconciliation helps ensure that financial records are accurate,
prevents over-obligation of funds, and helps managers plan future
funding needs.
Recommendation C
The Division of Enforcement should reconcile its blotter records
with the Comptroller's records.
Training
A number of attorneys told us that the support staff could benefit
from paralegal and automation training.  Also, several support
staff expressed an interest in this training, and uncertainty
over the basis for training decisions (that is, who receives training).
Recommendation D
In consultation with the Office of Administrative and Personnel
Management, the Division of Enforcement should provide additional
paralegal and automation training to its support staff.  It should
also clarify the basis for allocating training to its staff.
Software Training
The Office of Administrative and Personnel Management   recently
acquired training materials for users of Commission software.
It has not yet developed procedures for providing these materials
to employees.  This software would enable Enforcement to enhance
the staff's abilities. Enforcement's staff  cannot always attend
training courses because of sudden changes in their workload.
Enforcement should obtain the training software from OAPM.  If
the staff was permitted to use the software they would need to
spend only a few hours a day on training, instead of several days,
as required by most of OAPM sponsored training courses.
Recommendation E
The Office of Administrative and Personnel Management should
develop and publicize procedures covering use of its automation
training materials.
Document Storage
Based on our observations and interviews, the Division's document
storage could be improved.  Several offices did not have file
cabinets. Documents were kept in boxes instead.  We noted 15 boxes,
some of which were broken, on the floor outside one office.  The
documents were not currently needed, according to the staff, and
could have been sent to a temporary storage facility maintained
by a Division contractor. Boxes in the halls constitute a safety
hazard, and should be removed as soon as possible.
Recommendation F
The Division of Enforcement should improve its document storage,
for example, by obtaining additional file cabinets and reminding
staff to promptly send unneeded documents to permanent storage.
Per Diem Changes
The Division uses a software package for travel known as
Travel Manager.  The Office of the Comptroller updates this software
with per diem changes authorized by the General Services Administration.
The Office of the Comptroller received changes for January
1995 after the month had begun.  Consequently, early travel vouchers
for cities with changed per diem rates (for example, San Francisco,
California) used incorrect rates.
Recommendation G
The Office of the Comptroller should notify travel coordinators
when updates to Travel Manager are not timely, and indicate which
per diem rates have changed.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us